No. 20-1247

In The

Supreme Court of tfie QUmtetr i^tateg
Gerald Dix,
Petitioner,
v.
Edelman Financial Services, LLC., et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I hereby certify that the Petition
for Rehearing complies with the word limitations, as it contains 1,658 words.
I declare under penalty of perjury that the foregoing is true and correct.
SUBSCRIBED AND SWORN TO BEFORE ME this 7th day of June 2021.

JxJX
Gerald Dix
State of Illinois, County of Cook, ss. I, the undersigned, a Notary Public in and for the
said County, in the State aforesaid, DO HEREBY CERTIFY that Gerald Dix
personally known to me to be the same person whose name is subscribed to the
foregoing instrument, appeared before me this day in person, and acknowledged that
he signed the said instrument as his free and voluntary act as Witness for the uses
and purposes therein set forth
Given under my hand and official seal, this ~\ ^

day of June 2021.

Commission expires:
Notary Public
Official Seal
Daniel Durling ,
Notary Public State of Illinois
My Commission Expires 06/22/2022

